20

»

APPEAL NO.:

IN THE SUPREME COURT
OF THE
UNITED STATES

mu

IN RE: ROCHELLE DRIESSEN, Mother of
BRITTANY OLIVER, a developmentally
disabled person,
Petitioner/Appellant,
-vsMIAMI-DADE COUNTY, and
MIAMI-DADE COUNTY SCHOOL BOARD,

FILED
SEP 2 h 2020

Respondents/Appellees.

OFFICE OF THE CLERK
SUPREME COURT. U.S.

ON APPEAL FROM THE SUPREME COUT OF FLOIDA
CASE NO.: SC20-73

PETITIONER’S PETITION FOR WRIT OF CERTIORARI

Respectfully submitted,
Rochelle Driessen, pro se
945 NW 142nd Street
Miami, FL 33168

i RECEIVED
OCT - 6 2020

'gaagaaMHsg

QUESTION (S) PRESENTED

WHETHER THE SUPREME COURT OF FLORIDA
DENIED PETITIONER ACCESS TO THE COURT
PURSUANT ARTICLE 1, SECTION 21 OF THE FLORIDA
CONSTITUTION WHEN IT DECLINED TO ACCEPT
CERTIORARI JURISDICTION OF THE PETITIONER’S
APPEAL

‘

LIST OF PARTIES
[^] All parties in the caption of the case are listed on the cover
page.
[ ] All parties do not appear in the caption of the case on the
cover page. A list of all parties to the proceeding in the court
whose judgment is the subject of this petition is as follows:

TABLE OF CONTENTS
Page No.
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE PETITION

8

CONCLUSION

10

PROOF OF SERVICE

11

INDEX TO APPENDICES
APPENDIX A

Supreme Court of
Florida’s June 29, 2020, Order
Declining To Accept Jurisdiction Of Appeal

APPENDIX B

Third District Court of Appeal of Florida November 27,
2019 Order Affirming the Trial Court

APPENDIX C

The Supreme Court of Florida’s June 19, 2019, Order
Dismissing the Appeal for Lack of Jurisdiction

APPENDIX D

Third District Court of Appeal of Florida June 13, 2019,
Order denying the Petition for Writ of Certiorari, the
Response, and the Reply

APPENDIX E

Third District Court of Appeal of Florida May 14, 2019
Miscellaneous Order Treating Appellant’s Appeal as a
Petition for Writ of Certiorari

TABLE OF AUTHORITIES CITED
Page No.
I.

CASES

Allstate Ins. Co. v. Kaidamanos,
843 So. 2d 883, 889 (Fla. 2001) .................
Attwood v. Singletary.
661 So. 2d (1216) at 1217 ((Fla. 1995).....
Delgado v. Hearn.
805 So. 2d 1017, 1018 (Fla. 2d DCA 2001)
Harris v. Gattie.
No. 17-5170 (Fla. Dist. Ct. App. 2019).....
Ivey v. Allstate Ins. Co..
774 So. 2d 679, 682 (Fla. 2000)................
K.G. v. Fla. Dep’t of Children & Families.
60 So. 3d 366, 368-69 (Fla. 1st DCA 2011)
Lomax v. Taylor.
149 So. 3d 1136 n. 2 (Fla. 2014)...............
Presidio Networked Sols. Inc, v. Taylor.
115 So. 3d 434, 435 (Fla. 2d DCA 2013) ...
Reeves v. Fleetwood Homes of Fla.. Inc..
889 So. 2d 817, 822 (Fla. 2004)................
State v. Spencer.
751 So.2d 47 (Fla.1999)............................
Spencer v. State.
751 So. 2d 47 (Fla. 1999)..........................
Williams v. Owen.
62 So. 3d 1129, 1132 (Fla. 2011)..............
II.

8
6,9
5,7,9
6,8
8
8
7

8
6
6,7,9
8

STATUTES AND RULES

STATUTES
Fla. Stat. § 68.093(2)(d)l
12 USC § 67(a).............
Fla. Stat. § 68.093(3)(a) .
Fla. Stat. § 68.093(2)(a) .

3
4
4
7

RULES
III.

OTHER

Florida Constitution
Article 1, Section 21

3,5,7

IN THE SUPREME COURT OF THE
UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Appellant respectfully prays that a writ of certiorari be granted to review the
Judgment below.
OPINIONS BELOW
[

] For cases from federal courts:
The opinion of the U.S. Court of Appeals for the Second Circuit appears at
Appendix __ to the petition and is
[ ] reported at________________________________________
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the U.S. District Court appears at Appendix__to the petition
and is
[ ] reported at________________________________________
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

[ S] For cases from state courts:
The opinion of the highest state court to review the merits appears
at Appendix A,B,C,D.E to the petition and is
[ ] reported at________________________________________
[ ] has been designated for publication but is not yet reported; or,
[S] is unpublished.
The opinion of the state court appears at Appendix__to the petition
and is
[ ] reported at__________________________________________
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

1

or,

; or,

JURISDICTION
[

] For cases from the federal courts:
The date on which the U.S. Court of Appeals decided my case was on
A copy of the decision appears at Appendix___ .
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:
, and a copy of the order
denying rehearing at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including
(date) on
(date) in
Application No. _
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

K] For cases from state courts:
The date on which the highest state court decided my case was on June 29,
2020. A copy of that decision appears at Appendix A .
[ ] A timely petition for rehearing was denied by the Supreme Court of the
United Sates on the following date:__
, and a copy of the order
denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including
(date) in
(date) on
Application No. _
A
The jurisdiction of this Court is invoked 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS
Florida Constitution - Article 1, Section 21
Access to courts.—The courts shall be open to every person for
redress of any injury, and justice shall be administered without
sale, denial or delay.
Fla. Stat. § 68.093(2)(d)
“Vexatious litigant” means
1.
A person as defined in s. 1.01(3) who, in the immediately
preceding 5-year period, has commenced, prosecuted, or
maintained, pro se, five or more civil actions in any court in this
state, except an action governed by Florida Small Claims Rules,
which actions have been finally and adversely determined
against such person or entity.

3

STATEMENT OF THE CASE
Appellant seeks the certiorari jurisdiction of this Court pursuant to 28 USC §
1257(a). The Supreme Court of Florida entered an Order on June 29,2020, declining
to accept certiorari jurisdiction of the Petitioner’s appeal thereby denying Petitioner
discretionary jurisdiction of the Supreme Court of Florida. (See Appendix “A”).
This cause initially came up on appeal with the Third District Court of Appeal
of Florida under Appeal No. 3D19-1092 wherein on November 27, 2019, the Third
District Court of Appeal of Florida affirmed the decision of the lower tribunal in
declaring Petitioner a vexatious pro se litigant without affording Petitioner a show
cause hearing. (See Appendix “B”). Petitioner filed a timely petition for rehearing
which was denied by the Third District Court of Appeal of Florida.
A prior appeal was filed in the action by the Petitioner on May 1, 2019 with
the Third District Court of Appeal of Florida under Appeal No. 3D19-834, and under
the same lower tribunal Case No. 18-37974 CA (05), appealing the lower tribunal’s
April 17, 2019, Order On Defendant School Board’s Motion To Bar Plaintiff From
Further Pro Se Filings Or, Alternatively, To Designate Plaintiff As A Vexatious
Litigant, And Motion For Show Cause-Order under Appeal No. 3D 19-834.
The School Board filed a motion to dismiss the appeal on May 9, 2019. The
Appellant filed a response to the School Board’s motion to dismiss on May 10,2019.
And on May 14, 2019, the Third District Court of Appeal of Florida entered a
4

miscellaneous order treating Appellant’s May 1,2019, Notice of Appeal as a Petition
For Writ Of Certiorari ordering the Appellant to file a Petition for Writ of Certiorari
with an accompanying appendix within fifteen (15) days of entry of the order. (See
Appendix “E”).
Appellant filed the Petition For Writ of Certiorari with accompanying
appendix on May 17, 2019. The School Board filed a response to the Appellant’s
Petition for Writ of Certiorari on June 6, 2019, the Appellant filed a Reply to the
School Board’s response on June 10, 2019, and on June 13, 2019, the Third District
Court of Appeal of Florida denied the Petition for Writ of Certiorari, including the
response and reply, respectively. (See Appendix “D”). The Appellant appealed the
Third District Court of Appeal of Florida’s June 13, 2019, Order to the Supreme
Court of Florida which was dismissed for lack ofjurisdiction on June 19,2019. (See
Appendix “C”).
Pursuant to Article 1 Section 21 of the Florida Constitution “The courts shall
be open to every person for redress of any injury, and justice shall be administered
without sale, denial or delay.”
In Delgado v. Hearn, 23 805 So. 2d 1017 (Fla. 2d DCA 2002) the court
decided that “[wjhile it is clear that a litigant's right to access the courts may be
restricted upon a showing of egregious abuse of the judicial process, due process
requires that courts first provide notice and an opportunity to respond before
5

imposing this extreme sanction.”

State v. Spencer. 751 So.2d 47 (Fla. 1999).

Providing such notice and an opportunity to respond will serve to create a more
complete record. “If the litigant is thereafter denied further pro se access to the
courts, the appellate courts will have an enhanced ability to determine whether the
denial of access is an appropriate sanction under the circumstances.” Spencer. 751
So.2d at 49.
It was held in Harris v. Gattie. 17-5170 (Fla. Dist. App. 2019) In the context
of sanctioning a pro se litigant by barring further pro se pleadings, the supreme court
has recognized that there must be a balance between a litigant’s rights of access to
the courts and any abuse of that process.
We have recognized the importance of the constitutional
guarantee of citizen access to the courts, with or without an
attorney. See e.g., Rivera v. State. 728 So. 2d (1165) at 1166
(Fla. 1993)]; Attwood [v. Singletary]. 661 So. 2d (1216) at 1217
((Fla. 1985)]; see also art. 1, § 21, Fla. Const. (The courts shall
be open to every person for redress of any injury. ...). Thus,
denying a pro se litigant the opportunity to file future petitions,
is a sanction, especially where the litigant is a criminal defendant
who has been prevented from further attacking his or her
conviction, sentence, or conditions of confinement, as in Spencer
and Hoffman.
However, to balance the pro se litigant’s right of access against the need of the
court’s to prevent abusive filings, the court must provide the pro se litigant with
notice and an opportunity to be heard before such a sanction is imposed. Spencer.
751 So. 2d at 48. And this due process requirement applies to litigants involved in
6

civil proceedings as well as criminal ones. See, e.g. Lomax v. Taylor, 149 So. 3d
1136 n. 2 (Fla. 2014) (citing Spencer as providing the required procedure before
sanctioning a litigant in a civil case); Reithmiller v. Reithmiller. 133 So. 3d 926, 926
n. 3 (Fla. 2013) (same); Delgado v. Hearn. 805 So. 2d 1017, 1018 (Fla. 2d DCA
2001) (applying the Spencer standard to civil litigants).
The Third District Court of Appeal of Florida’s November 27, 2019, Order
affirming the trial attached at Appendix “B” which Petitioner appealed to the
Supreme Court of Florida cited the cases in the Order that determined Petitioner a
vexatious pro se litigant, which included federal cases that are outside the scope of
Florida Rules of Civil Procedure, and therefore cannot be used in determining
Petitioner a vexatious pro se litigant.
The Supreme Court of Florida denied Petitioner access to the Court in
declining certiorari jurisdiction of the Petitioner’s appeal pursuant to Article 1,
Section 21 of the Florida Constitution wherein pursuant to Fla. Stat. § 68.93(2) (a)
“Action” means a civil action governed by the Florida Rules of Civil Procedure and
proceedings governed by the Florida Probate Rules, but does not include actions
concerning family law matters governed by the Florida Family Law Rules of
Procedure or any action in which the Florida Small Claims Rules apply.

7

REASONS FOR GRANTING THE WRIT
In Harris v. Gattie. As noted above, while Harris filed a notice of appeal
directed to the sanctions order, we treat this appeal as a petition for writ of certiorari.
To be entitled to the issuance of such a writ, Harris must show “(1) a departure from
the essential requirements of the law; (2) resulting in material injury for the
remainder of the case (3) that cannot be corrected on postjudgment appeal.”
Williams v. Owen. 62 So. 3d 1129, 1132 (Fla. 2011) (quoting Reeves v. Fleetwood
Homes of Fla.. Inc., 889 So. 2d 817, 822 (Fla. 2004)). The departure from the
essential requirement of the law sufficient to warrant relief through certiorari is
something more than simple legal error. Instead, “[a] district court should exercise
its discretion to grant certiorari review only when there has been a violation of a
clearly established principle of law resulting in a miscarriage of justice.” Allstate
Ins. Co. v. Kaidamanos. 843 So. 2d 883, 889 (Fla. 2001) (citing Ivey v. Allstate Ins.
Co.' 774 So. 2d 679, 682 (Fla. 2000)). Such a miscarriage can occur when a party’s
due process right to notice and an opportunity to be heard has been abridged by the
court. See, e.g. Presidio Networked Sols. Inc, v. Taylor. 115 So. 3d 434, 435 (Fla.
2d DCA 2013) (noting that the trial court’s failure to provide notice and opportunity
to be heard to Presidio was a “complete denial of due process” sufficient to
“constitute[] the type of irreparable harm that is subject to certiorari review”); K.G.
v. Fla. Dep’t of Children & Families. 60 So. 3d 366, 368-69 (Fla. 1st DCA 2011)
8

(holding that the court’s failure to afford the mother an opportunity to be heard at
the shelter hearing constituted a departure from the essential requirements of the law
sufficient to be subject to review by certiorari).
The Supreme Court of Florida’s, the Third District Court of Appeal of
Florida’s, and the trial court’s departure from the essential requirement of law of
affording Appellant a show cause hearing on Appellee’s motion resulted in
Appellant being denied access to the court pursuant to Article 1, Section 21 of the
Florida Constitution, and to redress the injury of designating Appellant a “vexatious
litigant” that persists for the remainder of the case which cannot be corrected on
postjudgment appeal are sufficient grounds to grant Petitioner’s Petition for Writ of
Certiorari.
In Delgado v. Hearn. While it is clear that a litigant’s right to access the courts
may be restricted upon a show of egregious abuse of the judicial process, see, e.g.
Attwood v. Singletary. 661 So. 2d 1216 (Fla. 1995), due process requires that courts
first provide notice and an opportunity to respond before imposing this extreme
sanction. Spencer v. State. 751 So. 2d 47 (Fla. 1999). Providing such notice and an
opportunity to respond will serve to create a more complete record.

9

Petitioner was denied notice and opportunity to respond before the trial court
imposed the sanction of designating Petitioner a vexatious litigant, and was therefore
denied access to the courts.
CONCLUSION
Petitioner respectfully request the Court to grant Petitioner’s Petition for Writ
of Certiorari, and any and all other relief as required under the law.
Respectfully submitted,
'■yy

Rochelle Driessen, pro se
945 NW 142nd Street.
Miami, FL 33141
Date: September 24. 2020

10

NO.

IN THE
SUPREME COURT OF THE UNITED STATES

IN RE: ROCHELLE DRIESSEN, Mother of
BRITTANY OLIVER, a developmentally
disabled person,
Petitioner/Appellant,
-vsMIAMI-DADE COUNTY, and
MIAMI-DADE COUNTY SCHOOL BOARD,
Respondents/Appellees.
PROOF OF SERVICE
I, ROCHELLE DRIESSEN, do swear or declare that on this date September
24, 2020, as required by Supreme Court Rule 29 I have served the enclosed
PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on eveEjOther person required to be served, via e-service.
The names and addresses of those served are as follows:
Benjamin D. Simon, Esq.,
Richard Schevis, Esq.,
Assistant County Attorneys
Stephen P. Clark Center
Suite 2810
111 Northwest First Street
Miami, FL 33128-1993
Email: Ben.Simon@miamidade.gov
Email: schevis@miamidade.gov
li

Mary C. Lawson, Esq.
Jordan Madrigal, Esq.
Miami-Dade County School Board
School Board Attorney’s Office
1450 N.E. Second Ave.
Suite 430
Miami, FL 33132
Email: mlawson@dadeschools.net
Email: j ordanmadrigal@dadeschools. net

12

